CAPITAL CASE
No. 21-_________
IN THE
SUPREME COURT OF THE UNITED STATES
OSCAR SMITH,

Petitioner,
vs.
STATE OF TENNESSEE

Respondent
ON PETITION FOR WRIT OF CERTIORARI
TO THE TENNESSEE SUPREME COURT
APPENDIX TO PETITION FOR WRIT OF CERTIORARI
AMY D. HARWELL
Assistant Chief Capital Habeas Unit
*Counsel of Record
KATHERINE DIX
Assistant Federal Defender
ASHLEY WEST THOMPSON
Research & Writing Attorney
FEDERAL PUBLIC DEFENDER
Middle District of Tennessee
Capital Habeas Unit
810 Broadway, Suite 200
Nashville, TN 37203
(615) 736-5047
Amy_Harwell@fd.org

Counsel for Petitioner

APPENDIX A: Smith v. State of Tennessee, No. M2020-00485-SC-R11-ECN (Tenn. Dec. 3,
2020) ............................................................................................................................................. 1A
APPENDIX B: Smith v. State of Tennessee, No. M2020-00485-CCA-R3-ECN, 2020 WL
5870566 (Tenn. Crim. App. Oct. 2, 2020) ........................................................................... 2A-10A
APPENDIX C: Juror A Declaration ......................................................................................... 11A
APPENDIX D: Juror B Declaration .......................................................................................... 12A
APPENDIX E: Juror C Declaration........................................................................................... 13A
APPENDIX F: Relevant portions of the Trial Transcript, pgs 540-41, 543, 748-752, 1779, 2098,
2215, 2798, 2971, 3266, 3268, 3272-77, 3286-87 ............................................................. 14A-36A

1A

APPENDIX A

FILED
12/03/2020

IN THE SUPREME COURT OF TENNESSEE
AT NASHVILLE

Clerk of the
Appellale Courts

OSCAR SMITH v. STATE OF TENNESSEE
Criminal Court for Davidson County
No. 89-F-1773

No. l\il2020-00485-SC-Rll-ECN

ORDER

Upon consideration of the application for permission to appeal of Oscar Smith and
the record before us, the application is denied.
The opinion of the Court of Criminal Appeals is designated "Not For Citation" in
accordance with Supreme Court Rule 4, § E due to the intermediate court's
characterization of the juror declarations in obiter dictum contained in its conclusion.

PER CURIAlvI

Smith v. State, Slip Copy (2020)
2020 WL 5870566

KeyCite Yellow Flag - Negative Treatment
Appeal Denied, Not for Citation December 3, 2020

2020 WL 5870566
Only the Westlaw citation is currently available.
SEE RULE 19 OF THE RULES OF THE
COURT OF CRIMINAL APPEALS RELATING
TO PUBLICATION OF OPINIONS AND
CITATION OF UNPUBLISHED OPINIONS.
Court of Criminal Appeals of Tennessee,
AT NASHVILLE.
Oscar SMITH
v.
STATE of Tennessee
No. M2020-00485-CCA-R3-ECN
|
August 19, 2020 Session
|
FILED 10/02/2020
Appeal from the Criminal Court for Davidson County,
No. 89-F-1773, Angelita Blackshear Dalton, Judge

2A

APPENDIX B
*1 Following a jury trial in 1990, Oscar Smith was
sentenced to receive the death penalty in each of three
first degree murder convictions in the Criminal Court of
Davidson County. The Tennessee Supreme Court affirmed
the convictions and sentences of death in
State v. Smith,
868 S.W.2d 561 (Tenn. 1993). Mr. Smith is scheduled to
be executed February 4, 2021. This appeal by Mr. Smith is
from the trial court's summary dismissal of “Oscar Smith's
Omnibus Request for Relief on His Jury Claims,” (hereinafter
“Omnibus Request”). After oral arguments and review of the
briefs and the appellate record, we affirm the judgment of the
trial court in part, and dismiss the appeal in part.
Procedural Background
From the record and briefs it is apparent that Mr. Smith “has
pursued at least one unsuccessful challenge to [Mr. Smith's]
conviction[s] and [death] sentence through direct appeal, state
post-conviction, and federal habeas corpus proceedings,” see
Tennessee Supreme Court Rule 12.4.(A), which resulted in
our Supreme Court setting Mr. Smith's execution date. Mr.
Smith filed the Omnibus Request after the execution date was
set. The Omnibus Request seeks relief under the following
“procedural mechanisms potentially available in Tennessee,”
which we set forth as described in Mr. Smith's Omnibus
Request:

Attorneys and Law Firms

• Statutory writ of error coram nobis

Kelley J. Henry, Supervisory Assistant Federal Public
Defender; Amy D. Harwell, Assistant Chief, Capital Habeas
Unit; and Katherine M. Dix, Assistant Federal Public
Defender, Nashville, Tennessee, for the appellant, Oscar
Smith.

• Bivens-like action [ Bivens v. Six Unknown named
Agents of the Federal Bureau of Narcotics, 403 U.S. 388
(1971)]

Herbert H. Slatery III, Attorney General and Reporter;
Samantha L. Simpson, Assistant Attorney General; Glenn
R. Funk, District Attorney General; and Amy Hunter,
Assistant District Attorney General, for the appellee, State of
Tennessee.
Thomas T. Woodall, J., delivered the opinion of the court, in
which Robert W. Wedemeyer and Robert L. Holloway, Jr., JJ.,
joined.

OPINION
Thomas T. Woodall, J.

• Motion to reopen post-conviction petition under
Tennessee Code Annotated section 40-30-117
• Common law writ of audita querela
• A motion to correct illegal sentence pursuant to
Tennessee Rules of Criminal Procedure, Rule 36.1
• Open Courts Clause of Article I, section 17 of the
Tennessee Constitution
• The due process provisions in the Fifth and Fourteenth
Amendments of the United States Constitution, and the
law of the land provision in Article I, section 8 of the
Tennessee Constitution

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

Smith v. State, Slip Copy (2020)
2020 WL 5870566

As to Mr. Smith's request to reopen his post-conviction
Tennessee Code Annotated section
petition pursuant to
40-30-117, following proper statutory procedure, Mr. Smith
filed an application in the Court of Criminal Appeals for
permission to appeal from the trial court's denial of the motion
to reopen the post-conviction petition. See
Tenn. Code
Ann. § 40-30-117(c). The application was denied. Oscar
Smith v. State of Tennessee, No. M2020-00493-CCA-R28-PD
(Tenn. Crim. App. May 1, 2020) (order denying permission
to appeal denial of motion to reopen post-conviction petition)
perm. app. denied (Tenn. Aug. 5, 2020). Accordingly, that
claim is not before this court in this case.
On page 2 of his Omnibus Request, Mr. Smith candidly
acknowledges that Tennessee courts have previously
interpreted his theories of procedural vehicles to present his
jury claims in a manner that might foreclose relief for Mr.
Smith in this proceeding. Specifically, Mr. Smith asserts a
summary of his arguments for relief in the Omnibus Request
filed in the trial court as follows:

While acknowledging that Tennessee
courts have construed each of these
procedural vehicles in ways that may
foreclose his ability to obtain relief, he
presents here every procedural vehicle
of which he is aware. He respectfully
requests that this Court (1) interpret
at least one of these vehicles as
providing an avenue for relief; (2) if
none of these provide such a vehicle,
create a new procedural mechanism
for him to vindicate his constitutional
rights; or (3) hold that one or
more of these procedural vehicles
are unconstitutional because it leaves
him without a mechanism for him
to vindicate his constitutional rights.
State and federal due process and state
open courts constitutional provisions
require that Tennessee courts provide
Mr. Smith a procedure by which he
may establish his entitlement to relief
for the constitutional violations that
infected his capital trial.

3A

APPENDIX B
*2 Mr. Smith's statement of the issues in this appeal
asserts that this court must determine whether one of
the procedural vehicles submitted in the Omnibus Request
permits adjudication of his claims regarding:
1) introduction of extraneous, prejudicial, and untrue
information during the jury's deliberations;
2) deception which resulted in a juror biased against Mr.
Smith being seated on the jury; and
3) “other claims of juror misconduct” – however only one
such claim is alleged in the statement of issues – unsworn
opinion “testimony” by a juror during deliberations.
In the alternative to granting relief to Mr. Smith pursuant
to one or more of the “procedural vehicles” he has named,
Mr. Smith asserts that this court should determine whether
the courts must fulfill constitutional duties by “independently
providing a non-statutory procedure for the adjudication” of
Mr. Smith's claims.
Mr. Smith's claims derive from the contents of signed
statements purportedly from three of the jurors who sat on the
jury which convicted Mr. Smith of three counts of first degree
murder and imposed the sentence of death for each of the
three convictions. Mr. Smith asserts that each claim is based
upon violations of his constitutional rights guaranteed by the
United States and/or Tennessee Constitutions. The statements
are not affidavits. They are each designated as a declaration
of each person, with the following sentence directly above
the signature: “I, [Declarant], declare under penalty of perjury
that the foregoing is true and correct.” In order to protect the
identity of each juror named in the statements, they shall be
designated herein as “Juror A,” “Juror B,” and “Juror C.”
Juror A's statement is dated in handwriting as “11-22-2019;”
Juror B's is dated in handwriting as “11-25-19;” and Juror C's
is dated in handwriting as “12-1-19.”
All three statements are typed. The statements of Juror A and
Juror B have no changes to what was typed. However, Juror
C's statement contains handwritten changes initialed with
Juror C's initials. There is nothing in the record to disclose
who interviewed the people who signed the statements,
who typed the statements, the amount of time between any
interview and the signing of the statements, the method(s)
of the interviews (by phone, in person, etc.), or why it took
almost thirty years after Mr. Smith's trial for the jurors’
statements to be obtained. Also, since the statements are not
notarized, there is nothing authenticating the identification of

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

Smith v. State, Slip Copy (2020)
2020 WL 5870566

4A

APPENDIX B

the persons who signed the statements. There is nothing in
the record disclosing when or how the statements came into
possession of Mr. Smith.

were both from the Scottsboro area outside of Nashville,
TN. Mr. Newman was a police officer before he became
an attorney.

We conclude that the statements should be set forth herein.
Each statement has been redacted where necessary to protect
the identities of the persons who signed the statements, but
nothing which is redacted is relevant to the disposition of this
appeal. Juror C's statement will be set forth as amended.

I, [Juror A], declare under penalty of perjury that the
foregoing is true and correct.
/s/ [Juror A]
[Juror A]
Dated: 11-22-2019

Declaration of [Juror A]
I, [Juror A], an adult resident of Davidson County, Tennessee,
declare as follows:
1. I was on the jury that sentenced Oscar Frank Smith to
death.
2. At the time I was called to serve on Mr. Smith's jury,
I believed that anytime someone killed a person on
purpose they should get the death penalty. That was my
belief then and I still believe that today.
*3 3. Mr. Smith's case was even worse than most murders,
because it was three murders. Two of the victims were
children.
4. At the time of the trial, I was [employed at a Nashville
business]. My boss did not want me to be away from
work. At one point, I was late for court and the Judge
scolded me for being late. He told me that my boss was
not the boss in his courtroom. The Judge said, “I am!”
He told me I better be on time next time.
5. Before I was selected, the Judge talked to me in the
courtroom about my views on the death penalty. When I
was being questioned personally by the Judge, I felt like
he did not like my answers. I was confused by what the
Judge was saying to me, so I just went along with him.
In fact, I have never believed a person should get a life
sentence if they meant to kill someone. There was not
anything Mr. Smith's lawyers could have said that would
have made me change my opinion.
6. It was a tragedy how the police were called to the house,
but they didn't go inside. That young boy may have still
been alive.
7. Paul Newman was one of the public defenders for Mr.
Smith. My brother-in-law was friends with him. They

Declaration of [Juror B]
I, [Juror B], an adult resident of Davidson County, Tennessee,
declare as follows:
1. I was on the jury that sentenced Oscar Frank Smith to
death.
2. Thinking about this case now and knowing what I now
know, I wish we had given him life in prison instead of
the death penalty. I was just 30 or 31 at that time, and I
believed that life in prison was just 13 years. I did not
think 13 years was enough time for this crime, so I voted
for death.
3. We went through the voting quite a few times. We
wrote down our vote, but everyone knew who was voting
against the death penalty.
4. There was a young girl who was really upset with the
idea of the death penalty and electrocution. I talked to
her in the jury room privately and assured her that life in
prison was only 13 years. We had this conversation off
to the side during deliberation. After our discussion, she
later changed her vote and the jury became unanimous
as to the death verdict.
5. I really didn't think an execution would ever happen,
because and I was young and naive. I would now vote
for life.
6. There were some hot heads on the jury. Those men
just wanted to make a quick decision and go home. I
remember one or two of them had their minds made
up before we even deliberated. It was clear that nothing
would change their minds about giving Mr. Smith the
death penalty. Those guys just wanted out of there and
didn't participate in the discussion except to hurry us
along.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

Smith v. State, Slip Copy (2020)
2020 WL 5870566

I, [Juror B], declare under penalty of perjury that the
foregoing is true and correct.

5A

APPENDIX B
reasons for our vote. At some point, the two younger
[jurors], who sat next to each other, changed their vote.
I, [Juror C], declare under penalty of perjury that the
foregoing is true and correct.

/s/ [Juror B]
[Juror B]

/s/ [Juror C]

Dated: 11-25-2019

[Juror C]

Declaration of [Juror C]
I, [Juror C], an adult resident of Davidson County, Tennessee,
declare as follows:
1. Many years ago, I served on a jury in the case involving
the prosecution of Oscar Frank Smith.
*4 2. In explaining Mr. Smith's alibi for the crime, the
defense talked about it being a foggy night and said that
thick fog caused Mr. Smith to have to drive slowly. When
I was in [ ] High School, I took an aerospace science class
taught by the head of local civil aviation. Later, when I
was in the Navy [ ], I took a similar course. From those
classes, I learned about weather patterns. As I explained
to the jury, I knew from my training that the wind, as
reported that night, would have cleared the fog enough
that a person would not have had to drive as slowly that
evening.
3. Mr. Smith was found guilty of three individual murders.
You automatically had to give death.
4. None of us doubted Mr. Smith was guilty, even the two
alternates. We ate in the courthouse and therefore could
speak about things we heard at lunch. When we were
eating, the alternates could throw in their opinions. The
alternates let us know they also thought Mr. Smith was
guilty.
5. There were two younger [jurors] who really had a hard
time voting, because they did not want to give the death
penalty. One [juror] was black and one [juror] was white.
6. The [foreperson], [ ], talked to us each privately in a quiet
voice, when we began deliberating. [The foreperson]
talked to most of us for about three minutes, but talked
to the two younger [jurors] for at least 15 minutes each
privately.
7. After we all met with the [foreperson], we again met as
a group. We went around the table and each gave our

Dated: 12-1-2019
Concerning Juror A's statement relied upon by Mr. Smith in
his Omnibus Request, Mr. Smith included within the pleading
a transcript of a portion of the voir dire of Juror A concerning
imposition of the death penalty. It states as follows:
[Defense Counsel]: Okay. And would the fact that there are
three people killed, would that in any way inhibit you
from considering life imprisonment as opposed to the
death penalty? Or do you consider that any person who
is convicted of three crimes or murder should receive the
death penalty automatically?
Juror [A]: If he's proven guilty, he should, yes, sir.
[Defense Counsel]: Okay. So even though the Judge would
instruct you that you are to weigh the factors, is it your
position and are you telling the Court that if it is three
murders, that you would automatically vote for the death
penalty?
Juror [A]: Yes, sir.
[Defense Counsel]: And that would be despite whatever
instructions the Judge may give you because of your
personal feelings concerning this type of crime.
Juror [A]: Yes, sir.
[Defense Counsel]: Your Honor, at this point we'd ask that
he be excused.
[Prosecutor]: Well, Your Honor, I'd object at this point, He's
already answered the question a different way.
The Court: He answered the question already that if he
thought the aggravating factors did not outweigh the
mitigating factors that he would impose a life sentence.
He has answered that two or three different ways. I think
you need to answer the question now, [Juror A], and I
understand what his question is, is whether or not, if you
did not find that the mitigating – that the aggravating
factors outweighed the mitigating factors, in any of the

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

Smith v. State, Slip Copy (2020)
2020 WL 5870566

three cases involving the victim of homicide, whether or
not you would follow the law and impose a life sentence
in each case, or whether he would decide because there
were three cases that you would automatically impose
a life sentence in each case, or whether he would
decide because there were three cases that you would
automatically impose the death sentence or something.
That's the question.
*5 In other words, if in any one of the three cases where
there are victims alleged, you thought the aggravating
factors outweighed the mitigating factors you would
impose the death penalty in that particular case of
that particular victim. But if in none of the cases
you thought the aggravating factors outweighed the
mitigating factors, then you would impose a life sentence
in each of those?
Juror [A]: Yes, sir. Yes, sir.
The Court: And not add them up and have a cumulative -Juror [A]: Right.
The Court: -- sort of a -Juror [A]: Yes, sir.
The Court: -- finding? Do you understand the point I'm
making?
Juror [A]: Yes, sir.
The Court: All right. Now, understanding that, I'm not
trying to interject my question into [Defense Counsel's],
but I thought based on your earlier answers you may
have misunderstood them. If you had, say, Victim A,
and you found that the aggravating circumstances did
not, beyond a reasonable doubt, outweigh the mitigating
circumstances in that case, what would your sentence
be?
Juror [A]: Life.
The Court: If you had Victim B, and you thought
the aggravating factors did not outweigh beyond a
reasonable doubt the mitigating factors as to the victim,
what would -Juror [A]: that would be life.
The Court: -- your verdict be? And as to Victim C, if
you found that the aggravating factors did not beyond a

6A

APPENDIX B
reasonable doubt outweigh the mitigating factors, what
would your verdict be –
Juror [A]: Life.
The Court: -- in that case? All right. So are you saying if
factors did not outweigh – the aggravating factors did
not beyond a reasonable doubt outweigh the mitigating
factors, in any of the three victim's case that you would
return a verdict of life in this case, assuming –
Juror [A]: Yes, sir.
The Court: -- that guilt is proven beyond a reasonable
doubt; is that what you're saying?
Juror [A]: Yes, sir.
The Court: Okay. I thought that that was what he was
saying, but I'll be glad to let you ask him a followup question, but I don't want to have [Juror A] getting
maybe a little confused by your question based on what
I heard him say two or three different ways in his
responses to earlier questions.
Okay. Go ahead.
[Defense Counsel]: [Juror A], I'm not trying to confuse you.
And if I have, I apologize. What my question concerned
was, was the – was the possibility that you may be sitting
as a juror trying to decide either death by electrocution
or life in prison, would the fact that there would be three
victims, would that cause you to have a preconceived
notion or an idea that you should vote for death by
electrocution?
Juror [A]: No, sir; not just because there was three.
ANALYSIS
On January 15, 2020, our supreme court granted the State's
request to set a date for Mr. Smith to be executed. The court
ordered Mr. Smith to be executed by the State of Tennessee
on June 4, 2020. Mr. Smith's Omnibus Request was filed
February 28, 2020. The trial court summarily dismissed the
Omnibus Request in an order filed March 10, 2020. On April
17, 2020, the Tennessee Supreme Court, upon motion of
Mr. Smith, stayed his execution of June 4, 2020 due to the
COVID-19 pandemic. The order rescheduled the execution
of Mr. Smith by the Tennessee Department of Correction for
February 4, 2021.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

Smith v. State, Slip Copy (2020)
2020 WL 5870566

There are two distinct parts to Mr. Smith's Omnibus Request
and his appeal from the trial court's summary dismissal
of the Omnibus Request. The first part is comprised of
allegations that Mr. Smith was unconstitutionally denied
a fair and impartial trial as the result of improper juror
conduct during voir dire and improprieties during and before
jury deliberations. Everything that Mr. Smith relies upon in
support of these allegations is contained in the statements of
Jurors A, B, and C. For clarity we will refer to all of Mr.
Smith's assertions of violations of his constitutional rights,
based upon the three statements, as his substantive claims. It
does not matter how meritorious the substantive claims may
be unless there is a procedural mechanism for the substantive
issues to be addressed by a Tennessee court at this late date,
thirty years after his convictions. Thus, the other part of Mr.
Smith's Omnibus Request is his arguments that: (1) either
one or more of the procedural vehicles he names allows a
court to address his substantive claims, or (2) if not, the
trial court or this court must fulfill “constitutional obligations
by independently providing a non-statutory procedure for
the adjudication of Mr. Smith's constitutional claims.” (Mr.
Smith's brief, p. 1).
*6 We must respectfully decline to attempt to create a nonstatutory procedure to address Mr. Smith's substantive claims.
As an intermediate appellate court, we lack the authority
to create a heretofore non-existent procedural mechanism to
address the merits of Mr. Smith's substantive claims. See
Tenn. Code Ann. § 16-5-108 (stating the jurisdiction of the
Court of Criminal Appeals); Tenn. Code Ann. § 16-3-402
(granting the supreme court the authority to prescribe rules
of practice and procedure). Accordingly, we will only review
whether any of the procedural mechanisms asserted by Mr.
Smith in his Omnibus Request allows a Tennessee court to
address his substantive claims at this time.
I. Writ of Error Coram Nobis
Mr. Smith argues that the substantive claims can be addressed
pursuant to the statutory writ of error coram nobis. He makes
a short argument in his appellate brief in support of using a
petition for writ of error coram nobis as a procedural vehicle.
He asserts the evidence contained in the juror statements is
newly discovered, the court proceedings might have been
different if the statements had been discovered earlier, it is not
Mr. Smith's fault the statements were not discovered earlier,
and the one year statute of limitations for filing a petition for
writ of error coram nobis should be tolled on due process
grounds pursuant to

Workman v. State, 41 S.W.3d 100,

7A

APPENDIX B
101-104 (Tenn. 2001). Mr. Smith argues in his brief on appeal
that the statements of Jurors A, B, and C constitute “proof
that the jury that convicted and sentenced Mr. Smith to death
violated his constitutional rights” to a fair and impartial jury.
In its brief, the State argues that the writ of error coram nobis
is not appropriate for remedying violations of a defendant's
constitutional rights. We agree with the State. In Nunley v.
State, 552 S.W.3d 800 (Tenn. 2018), our supreme court held
that “an error coram nobis proceeding is not the appropriate
procedural vehicle for obtaining relief on the ground that
the defendant suffered a constitutional due process violation
under
Brady [v. Maryland, 373 U.S. 83 (1963)].” Nunley,
552 S.W.3d at 819. The court concluded that a post-conviction
proceeding is the proper procedural vehicle to seek relief
for a Brady violation. Also in Nunley, the court specifically
clarified that the writ of error coram nobis is not a procedural
mechanism to remedy violations of constitutional rights. Id.
at 829 n. 22. Thus, Mr. Smith is not entitled to present his
substantive constitutional issues by writ of error coram nobis.
The State also argues that Mr. Smith's effort to have his
substantive issues addressed in a petition for writ of error
coram nobis is barred by the applicable one year statute of
limitations in Tennessee Code Annotated section 27-7-103,
and Mr. Smith is not entitled to have the statute of limitations
tolled. We agree with the State. As noted above, remedying
any deprivation of constitutional rights is not cognizable
in an error coram nobis proceeding. Nunley, 552 S.W.3d
800, 823 n. 22 (Tenn. 2018). When a petitioner raises only
non-cognizable claims in a petition for writ of error coram
nobis, the petitioner is not entitled to tolling of the statute
of limitations. Id. at 831; State v. Sutton, No. E2019-01062CCA-R3-ECN, 2020 WL 703607, at *4 (Tenn. Crim. App.
Feb. 11, 2020) perm. app. denied (Tenn. Feb. 14, 2020).
Furthermore, the facts detailed in the three statements are
not the type of admissible evidence which is applicable to
error coram nobis claims. If taken as absolutely true, evidence
of juror misconduct set forth in the statements would not
be relevant to the issues of Mr. Smith's guilt or innocence
or to the existence of aggravating and mitigating factors for
sentencing. At most, if the conduct of the jurors had timely
come to the attention of the trial court during or after trial,
a mistrial or a new trial, respectively, would have been the
available remedies, not an acquittal or a sentence of life
imprisonment. By the explicit language in the statute that
authorizes coram nobis relief, the newly discovered evidence
must relate “to matters ... litigated at the trial if the judge
determines that such evidence may have resulted in a different
judgment, had it been presented at the trial.” Tenn. Code Ann.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

Smith v. State, Slip Copy (2020)
2020 WL 5870566

§ 40-26-105(b) (emphasis added). See Nunley, 552 S.W.3d at
831.
*7 Mr. Smith is not entitled to relief on his issue that
a petition for writ of error coram nobis is an available
procedural vehicle to present his substantive claims.

II.

Tennessee Rule of Criminal Procedure 36.1

Tennessee Rule of Criminal Procedure 36.1 provides
to a defendant a method to request correction of an
unexpired illegal sentence. At the time Mr. Smith's offenses
and convictions occurred, execution was a statutorily legal
sentence for first degree murder. See Tenn. Code Ann.
§ 39-2-203 [now § 39-13-204]. Accordingly, the death
sentences imposed upon Mr. Smith were authorized by
statute and did not directly contravene an applicable statute.
Therefore, the sentences of death are not illegal pursuant to
Rule 36.1. See State v. Wooden, 478 S.W.3d 585, 595
(Tenn. 2015). In his brief, Mr. Smith makes arguments that
have been rejected by our supreme court. Essentially, Mr.
Smith argues that his death sentences are illegal because of the
methodology used to impose the sentences of death: the jurors
who deliberated and reached the verdicts denied Mr. Smith of
his constitutional right to a fair and impartial jury. In Wooden,
the Court determined the meaning of “illegal sentence” as that
Rule 36.1. Id. at 587. In its analysis, the
term is used in
court set forth three types of sentencing errors. Id. at 595.
The first is a clerical error, which occurs as a result of a
mistake filling out the judgment document, and these can be
corrected at any time pursuant to Tennessee Rule of Criminal
Procedure 36. Second is the appealable error, from which an
appeal as of right from a judgment is authorized. The court
stated that appealable errors “generally involve attacks on
the correctness of the methodology” by which a sentence is
imposed. Id. Finally, as to the third type of sentencing error,
the fatal error, the court stated,
The final category is fatal errors, and these errors are
“so profound as to render the sentence illegal and void.”
Cantrell [v. Easterling, 346 S.W.3d 445,] 452. This
category consists of any sentence “that is not authorized
by the applicable statutes or that directly contravenes an
applicable statute.”

Tenn. R. Crim. P. 36.1(a); see also

Cantrell, 346 S.W.3d at 452. Included in this category
are sentences imposed pursuant to an inapplicable statutory
scheme, sentences designating release eligibility dates

8A

APPENDIX B
where early release is statutorily prohibited, sentences that
are ordered to be served concurrently where statutorily
required to be served consecutively, and sentences not
authorized by any statute for the offenses. Davis [v. State,
313 S.W.3d 751,] 759.
Wooden, 478 S.W.3d at 595.
“Only fatal errors render sentences illegal.” Id., (citing
Cantrell, 346 S.W.3d at 452).
Mr. Smith's sentences of death by execution by the State of
Tennessee were imposed by an applicable statutory scheme;
the sentences of death were authorized for convictions of
first degree murder; release eligibility is not applicable to a
death sentence; and concurrent/consecutive sentencing was
not applicable. Tennessee Rule of Criminal Procedure 36.1
does not supply a procedural vehicle to address Mr. Smith's
substantive claims because the claims solely involve attacks
on whether the methodology used by the trial court to impose
the death sentences was correct. See Wooden, 478 S.W.3d 595.
Accordingly, Mr. Smith is not entitled to relief pursuant to
Rule 36.1.

III. Claims for relief based upon
Bivens v. Six Unknown named
Agents of the Federal Bureau of
Narcotics, 403 U.S. 388 (1971);
Common law writ of audita
querela; Open Courts Clause of
Article I, section 17 of the
Tennessee Constitution; the due
process provisions in the Fifth and
Fourteenth Amendments of the United
States Constitution, and the law of the
land provision in Article I, section 8 of
the Tennessee Constitution

*8 As to these claims for a procedural vehicle to present
Mr. Smith's substantive issues, the State's only argument is
that Mr. Smith's appeal as to these issues should be dismissed
because this court lacks jurisdiction to address whether the
trial court erred as to these claims. The State's argument is
that there is no appeal as of right pursuant to any statute or in
Tennessee Rule of Appellate Procedure 3(b) from the trial

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

Smith v. State, Slip Copy (2020)
2020 WL 5870566

court's dismissal of Mr. Smith's request for relief pursuant to
the four proposed procedural vehicles listed above.
A more appropriate analysis based on the State's argument
would be that an appeal as of right does not explicitly exist
from either a trial court's denial or granting in whole, or in
part, an “Omnibus Request for Relief on a petitioner's jury
claims,” with the exceptions as to the included grounds in
this case of: (1) petition for writ of error coram nobis and
(2) motion to correct illegal sentences. Tenn. Code Ann. §
40-26-105(d) (allows an appeal of a writ of error coram nobis
to this court);

Tenn. R. App. P. 3(b) (allows an appeal as of

Rule 36.1). The
right from judgment entered pursuant to
State did not address the merits of whether Mr. Smith's claims
of procedural vehicles by these means was appropriate, except
to note Mr. Smith's concession in his motion that “Tennessee
courts have construed each of these procedural vehicles in
ways that may foreclose his ability to obtain relief.”
Mr. Smith does not contest this assertion in his reply brief.
Instead, he focuses in his reply brief, quite correctly, that
the State on appeal does not dispute Mr. Smith's assertion
that his constitutional rights to a fair and impartial jury were
denied. Mr. Smith concludes his reply brief by arguing he is
entitled to a judicially created procedure in order to address
his substantive claims.
We conclude that we are without jurisdiction to consider
these claims for relief to these four listed procedural vehicles
because he has no appeal as of right from the denial of relief
by the trial court. Accordingly, as to these claims, the appeal
must be dismissed.
Mr. Smith also argues that the trial court erred by not allowing
evidence in support of his substantive claims to be presented,
and relies upon the order of our supreme court in State v.
Lee Hall, a/k/a Leroy Hall, Jr., No. E1997-00344-SC-DDTDD, (Tenn. Dec. 3, 2019) (Order denying stay of execution
pending appeal as of right regarding biased juror). As to Mr.
Hall's appeal from denial of a motion for a second postconviction proceeding due to newly discovered evidence of a
juror's bias in his death penalty case, the Tennessee Supreme
Court included in its order the following: “[T]he trial court
wisely recognized the due process concerns, particularly in a
capital case, and allowed Mr. Hall to present evidence on his
second post-conviction petition as if it were a proper vehicle.”
Id. at p. 10, (emphasis added).

9A

APPENDIX B
We have addressed on the merits Mr. Smith's contentions
that the writ for error coram nobis and
Tennessee Rule
of Criminal Procedure 36.1 provide procedural vehicles
for presentation of his substantive issues regarding juror
improprieties. We have dismissed the appeal as to his other
claims of relief for a procedural vehicle, and concluded we
have no authority to create an unspecified judicial procedure
to address Mr. Smith's substantive issues. No amount of
testimony from the jurors, based upon what is contained in the
statements, would change the results reached by this court.
*9 In addition, our supreme court in Leroy Hall, Jr., Id., also
noted that the trial court would have acted within its discretion
to dismiss the claim for a second post-conviction proceeding
without the evidentiary hearing. Id. at p. 10.

CONCLUSION
None of the procedural vehicles asserted by Mr. Smith
are legally available to address his substantive claims that
juror misconduct deprived him of a fair and impartial trial
in violation of his rights under the United States and/or
Tennessee Constitutions. The facts set forth in the three
statements are disturbing if taken as true, especially the
alleged facts of juror bias as set forth in Juror A's declaration.
If those facts had been presented in a motion for new trial
and believed by the trial court, it is possible that a new
trial would have been granted at least as to sentencing. See
State v. Akins, 867 S.W.2d 350, 355 (Tenn. Crim. App.
1993) (“[w]hen a juror conceals or misrepresents information
tending to indicate a lack of impartiality, a challenge may
be made as here in a motion for new trial.”)
Id., at 357.
“The integrity of the voir dire process depends upon the
venire's free and full responses to questions posed by counsel.
When jurors fail to disclose relevant, potentially prejudicial
information, counsel are hampered in the jury selection
process. As a result, the defendant's right to a trial by a fair
and impartial jury is significantly impaired.” Carruthers v.
State, 145 S.W.3d 85, 95 (Tenn. Crim. App. 2003) (Tennessee
Rule of Evidence 606(b) does not prohibit a juror from
testifying about whether extraneous prejudicial information
was disclosed by another juror during deliberations, although
the effect that the improper extraneous information had on the
jurors is not admissible). However, we conclude that at this
time no procedural vehicle in Tennessee courts exists for Mr.
Smith to present his claims. Accordingly, the judgment of the
trial court dismissing the Omnibus Request as to a request

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

Smith v. State, Slip Copy (2020)
2020 WL 5870566

10A

for relief via a Tennessee Rule of Criminal Procedure 36.1
motion and petition for writ of error coram nobis is affirmed.
As to Mr. Smith's claims for relief via a “Bivens-like” action,
common law writ of audita querela, the open courts clause of
Article I, section 17 of the Tennessee Constitution, and due
process provisions of the United States Constitution and the
law of the land provision of the Tennessee Constitution, the
appeal is dismissed. Furthermore, we respectfully deny Mr.
Smith's request for this court to create a presently non-existent
non-statutory procedural vehicle for Mr. Smith to have his
End of Document

APPENDIX B

substantive issues addressed on the merits. The current laws
which this court is obligated to follow make the potential
merit of Mr. Smith's substantive issues to be irrelevant as to
whether he can have an evidentiary hearing in a state trial
court.
All Citations
Slip Copy, 2020 WL 5870566

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

11A

APPENDIX C

Declaration ofJUROR A

I, JUROR A
1.

, an adult resident of Davidson County, Tennessee, declare as follows:

I was on the jury that sentenced Oscar Frank Smith to death.

2. At the time I was called to serve on Mr. Smith's jury, I believed that anytime someone
killed a person on purpose they should get the death penalty. That was my belief then
and I still believe that today.
3. Mr. Smith's case was even worse than most murders, because it was three murders. Two
of the victims were children.
4. At the time of the trial, I was a supervisor at Nashville Wire Company. My boss did not
want me to be away from work. At one point, I was late for court and the Judge scolded
me for being late. He told me that my boss was not the boss in his courtroom. The Judge
said, "I am!" He told me I better be on time next time.
5. Before I was selected, the Judge talked to me in the court room about my views on the
death penalty. When I was being questioned personally by the Judge, I felt like he did
not like my answers. I was confused by what the Judge was saying to me, so I just went
along with him. In fact, I have never believed a person should get a life sentence if they
meant to kill someone. There was not anything Mr. Smith's lawyers could have said that
would have made me change my opinion.
6. It was a tragedy how the police were called to the house, but they didn't go inside. That
young boy may have still been alive.
7. Paul Newman was one of the public defenders for Mr. Smith. My brother-in-law was
friends with him. They were both from the Scottsboro area outside ofNashville, TN.
Mr. Newman was a police officer before he became an attorney

I, JUROR A

, declare under penalty of perjury that the foregoing is true and correct.
JUROR A
JUROR A

Dated: fl- J .l ~ J

o t''t

12A

13A

APPENDIX E

JUROR C
JUROR C

JUROR C

JUROR C

JUROR C
JUROR C
JUROR C

APPENDIX F

14A

1

I'm going Lo read you a little statement

2

here in a moment of two that will give you a brief

3

outline of the statement of the alleged facts and so

4

forth, but that's the introduction to it.

5

(

I,,

Now, what I want to do first and

6

foremost with all of you is very strongly emphasi~e,

7

very strongly emphasi~e that the only information that

8

you would need to consider, if you're selected

9

on this jury, ls the Information and the evidence that

t?

serve

10

you hear in this courtroom.

11

testifying under oath.

12

evidence introduced for your consideration, physical

13

evidence, so forth, pictures and different things.

14

will need lo consider thaL evidence as it is introduced

15

in this courtroom from this witness chair under oath

16

and nothing else.

17

this week, during the course of this jury selection,

18

during the course of this trial, which will go in

19

through nexL week, we do not want you Lo look at any

20

newspapers that have any accounts of this trial whatso-

21

ever.

22

reporter, made in good faith, I'm sure, but from a

23

perspecLive LhaL's noL whaL you need to consider it

24

from.

25

case on is whaL you hear in this courtroom under oath

You will hear witnesses

There will be, I'm sure,

You

By that I mean during the course of

Those.newspaper reports would be reports of a

All you need to consider anything about UJis

540

APPENDIX F

15A

and absolutely nothing else.
·: .. :'.

So during this week when you're being
2

considered to be on the jury, and a[ter that, lf you
3
4

5
6
7
8
9

10

are selected to be on the jury, you need to have no
reference whatsoever in any shape, form, or fashion to
anything that is either in the Tennessean in the morning or the Nashville Banner in the afternoon.

Also,

I'm sure there will be television accounts concerning
this case, different things that the television
stations will present to their viewers that will relate
to this case that may emphasl:te one part of the case,

11

12
13

may emphasize another.

Whatever it may be, you need to

have no reference to that whatsoever.
So during the jury selection process

14

this week you need not watch the news on television
15

16
17
18
19

until this jury is selected at all.

watch it anytime, but particularly while you're being
processed and considered to serve on this jury, you
need to_have no reference to the local news whatsoever.
So I reali~e tha~ this is somewhat of an

20

21
22

23
24

25

You don't need to

imposition on you, and it's done because I intend Lo
give both the Stale of Tennessee and the defendant a
fair trial.

And in order for me to do that, I need lo

ensure that what you consider in the course of giving
both sides a fair trial ls what you hear ln this
courtroom, not what a newspaper reporter on television
541

APPENDIX F

16A

Smlth, that you consider only the evidence that you

.;~-~.?" .
\.I •~•:••

hear in this courtroom.
2

Plenty of people have got opinions.
3

Everybody's got an oplnlon.

You know that.

You can go

4
5
6
7
8
r··

9
10

11

to a barber shop, a beauty parlor, a ball game, or
wherever you might go.

of big opinions about this, and I'd do this and that,
and this and the other.
of that.

l"

14
15
16
17
18

You don't need lo consider any

You need to not consider that.

You need to

be above that and to only llsten to the evidence ln
this courtroom.
You'll have time, if you're selected to

12
13

And people have got all kinds

be a member of the jury, Lo deliberate in good faith in
the jury room, without any outside influence whatsoever.

And during the process that we're having now, it's

extremely important for you not to have any considera-

-

Lion outside the group or even among yourselves, as
you're waiting to consider jury service about thiB

19

case.

20

into the courtro_om about what you know about the case.

21
22
23
24
25

You' re going to be asked ques.Lions when you come

You'll have plenty of time Lo let these lawyers ask you
questionB as to whether or not you've either formed or
expressed any kind of an opinion at all.

But we'll

keep that between you, the lawyers, and the Court.
don't need to be·speculatlng ln the hall or thinking
about it or wondering out loud or anything.

(:

-·.....
:

543

·'

You

APPENDIX F

17A

prison.

·._.;..!:•·:·

2

JUROR:

3

MR. NEWMAN:

4

JUROR:

5

MR. NEWMAN:

6

Right.

Yes, sir.
Do you have any problems

with that al all?

7

JUROR:

8

MR. NEWMAN:

9

Do you understand that?

No, sir.

Now, from reading Lhrough

the facts or the facts that the Judge read to you

10

concerning this alleged crime, they -- there was an

11

alleged -- allegedly there are three people killed in

12

Lhis crime.

Do you understand LhaL?

13

JUROR:

Yes, sir.

14

MR. NEWMAN:

Okay.

And would the facL

15

that there are three people killed, would that In any

16

way inhibit you from considering life imprisonment as

17

opposed to the death penalty?

18

any person who ls convlcLed of three crimes or murder

19

should receive the death penalty automatically?

20
21

22

JUROR:

Or do you consider that

If he's proven guilty, he

should, yes, sir.
MR. NEWMAN:

Okay.

So even though the

23

Judge would instruct you thaL you are Lo weigh the

24

factors, is it your position and are you telling the

25

Court that if it ls three murders,

that you would
748

APPENDIX F

18A

automatically vole for the death penalty?
JUROR:
2

Yes, sir.

MR. NEWMAN:

And that would be despi·te

3

whatever instructions the Judge may give you because of
4

your personal feelings concerning this type of crime?
5

JUROR:
6

7

MR. NEWMAN:

Your Honor, at this polnt

we'd ask that he be excused.

8
9

Yes, sir.

GEN. BLACKBURN:
object at this point.

Well, Your Honor, I'd

He's already answered the

10

question a different way.
11

THE COURT:

He answered the quest.ion

12

already that if he thought the aggravating factors did
13
;

not outweigh the mitigating factors that he would

{-

14

impose a life sentence.

He has answered that two or

15

three different ways.
16

question now,

I think you need to answer the

JUROR A ,

and I understand what his

17

question is, is whether or not., if you :·did not find
18

that the mlllgatlng -- that the aggravating factors
19

outweighed the mitigating fact~r-s, i-ri any oft.he three
20

cases involving the victim of homicide, whether or not
21

you would follow the law and impose a life sentence in
22

each case, or whether he would decid~ because there
23

were three cases that you would automatically impose
24

the death sentence or something.

That's the question.

25

749

APPENDIX F

19A

In other words, if in any one of Lhe
2

3
4

5
6

7
8

three cases where there are victims alleged, you
thought the aggravating factors outweighed the
mitigating factors you would i~pose the death penalty
in that particular case of that particular victim.

lf

But

in none of the cases you thought the aggravating

factors outweighed the mitigating factors, then you
would impose a life sentence in each of those?

9

JUROR:

10

Yes, sir.

THE COURT:

Yes, sir.

And not add them up and have

11

a cumulative
12

JUROR:

Right.

13
i"·

\,.

THE COURT:

sort of a --

14

JUROR:
15

Yes, sir.

THE COURT:

-- finding?

Do you

16

understand the point I'm making?
17

JUROR:

Yes, slr.

18

THE COURT:

All right.

Now,

19

understanding that, I'm not trying to interject my
-20

questior~ into Mr. Newman• s, but I thought based on your
21
22

23

24
25

earlier ans~ers you may have misunderstood them.

If

you had, say, Victim A, and you found thal the
aggravating circumstances dld not, beyond a reasonable
doubt, outweigh lhe mltigating circumstances in that
case, what would your sentence be?
750

APPENDIX F

20A

1

JUROR:

2

THE COURT:

.

If you had Victim B, and you

3

thought the aggravating factors did not outweigh beyond

4

a reasonable doubt the mitigating factors as to that

5

victim, what would

That would be life.

6

JUROR:

7

THE COURT:

-- your verdict be?

And as

8

to Victim C, if you found that the aggravating factors

9

did not beyond a reasonable doubt outweigh the mltlgat-

10

\ ....

Life.

ing factors, what would your verdict be --

11

JUROR:

Life.

12

THE COURT:

in that case?

All right.

13

So are you saying if [actors did not outweigh -- the

14

aggravating factors did nol outweigh the mitigating

15

factors, ln any of the three victims' case Lhat you

16

would return a verdict of life in this case, assuming--

17

JUROR:

Yes, sir.

18

THE COURT:

that guilt is proven

19

beyond a reasonable doubt; ls that what you're

20

saying?

21

JUROR:

Yes, sir.

22

THE COURT:

Okay.

I

thought LhaL that

23

was what he was saying, but I'll be glad lo let you ask

24

him a follow-up question, but I don'L Wdnl Lo have

25

JUROR A

getting maybe a little confused by your question

751

APPENDIX F

21A

based on what I heard him say two or three dlfferent
1

ways in his reponses lo earlier questions.

2

Okay.
3
4
5

6
7
8
9

10

Go ahead.
JUROR A

MR. NEWMAN:
Lo confuse you.

And if I

have, I

, I'm not trying

apologi~e.

What my

was the possibility

question concerned was, was the

that you may be sitting as a juror trying to decide
either death by electrocution or life in prison, would
the (act that there would be three victims, would that
~ause you to have a preconceived notion or an idea that
you should vote for death by electrocution?

11

JUROR:

No, sir; not just because there

12

was three, no.
13

MR. NEWMAN:

I,.'

(

.::··

Okay.

So you understand,

14

then, the concept of welghlng the
15

JUROR:
16

17

Right.

MR. NEWMAN:

aggravatlng_and

mitigating, and you could follow the instructions that

18

Judge Wyatt had just given to you?
19

JUROR:
20

Yes, sir.

MR. NEWMAN:

Okay.

And lf I have

21

confused you~ I certainly apologize.
22

23
24

I don't recall your answer concerning
pre-trial publicity.

Can you tell me if you had heard

anything about this case before you came here this

25

morning?
;.,

•,

752

APPENDIX F

22A

you.

These courL officers will do anything they can Lo

2

help you.

And Lhen tomorrow we'll probably have two

3

dlfferenl ones that wlll be wllh you Lomorrow.

4

kind of alternate a little bit.

We'll

LeL me mention Lo you now al the

5
6

beginning of the trial, you're going lo be sequestered.

7

So Lhere shouldn't be any real problem wlLh you being

8

exposed to Lhe matters that you do not need to concern

9

yourself with.

But I want Lo remind you now,

Lhls ls,

all of the folks that are

10

I think, all of the people

11

on the jury, Lhls ls your first trial.

12

During lhe trial of a case, you're going

13

Lo hear evidence beginning here in maybe five or Len or

14

fifteen minutes.

15

consider Lhls evidence, naturally, store lt ln your

16

mind for a laler reference in your deliberations, but

17

please do not form or express any opinion during Lhe

18

Lrlal of lhe case about what you're hearing.

19

important for you not to discuss or Lo begin Lo

20

speculate when you hear parL of the evidence, during

21

your breaks or during your lunch, or whenever iL may

22

be, anything about the case.

23

discuss Lhe maLter wlLh each other al the end of all of

24

the evidence, the closing arguments by the attorneys

25

and by Lhe Court's lnstrucLlon Lo you, when you begin

During the tria:J_ of the case,

It's very

-

It's only appropriate to

1779

APPENDIX F

23A

of lL la such that that is what we need Lo go ahead and
do.

So w~•11 be in recess for dinn~r.

And Kayo said

2

you all can eat about 5:15.

So that will be 15

3

minutes.

And you all can kind· of loosen up, if ·you

4

would.

And I'll just aee you back here as soon as we

5

can gel here.

And lhal will be sometime maybe just a

6

little after 6:00.

So we'll see you then.

7

Yeah.

I didn't see her.

Swear Boo.

8

9

(WHEREUPON, the matron ls sworn
10

lo take charge of the jury, and
11

after which, the further
12

following proceedings were
,!'."::::~--;\
t. . ..

13

~

\-"'

had, to-wit:)

'}
•'

14
15

THE COURT:

Okay.

This is Mary

16

Eli~abeth Lynch.

And she's often -- mostly called and

17

referred lo as Boo Lynch.

And she apparently has jusl

18

arrived here in time for supper.

And so that•s smart

19

on your part, Boo.

But she will be with you lhis

20

evening along with my court officers for any personal
21

needs that any o[ you ladies may have.
22

So you all can go on upstairs.

And let

23

me remind you not lo discuss anything about lhe case al
24

all.

And I'll see you here ln a little over an hour.

25

2098

00044

APPENDIX F

24A

want to thank everyone of you for your attentlon and
patience today.
2

aLtentlve.

And I appreciate you very much.

3
4

5

You've been very good and very

We're going to recess, adjourn for the
evenlng.

We'll get started again right at 9 o'clock.

Let me remind you do not in any way discuss this matter

6

or do anyLhlr1g inconsistent wlth what I mentioned to
7

you last week about not forming or expressing an

8

oplnlon.

If you'll do that, I'll see you all in the

9

morning at 9 o'clock.

And we'll get started right al

10

tha l llme.
11
12

({)

(WHEREUPON, the jury retired

13

from open court al 7:57 p.m. and

14

was excused for the evening, and
15

after which, the further following
16

proceedings were had, to-wit:)

17
18

THE COURT:

Keep your seat for just a

19

moment.

Did

you

have something you wanted to add?

20

MR. DEAN:

Yeah, I just wanted to --

21

I've been kind of keeping a score card here.
22
23
24

And I

we've been telling our wltnesses, and Mr. Kayo Smith
has, lo come in on Wednesday.

I -- the way things are

moving, lt's conceivable, lf my 11st ls accurate, maybe

25

...

I

.!

2215

\.

00161

APPENDIX F

25A

2
3

THE CLERK:

6-JJ.

THE COURT:

JJ, okay.

That's that

picture from the State's exhibit?

4

THE CLERK:

(Nods affirmatively.)

5

THE COURT:

Okay.

6

7

(State's Exhibit No. 6-JJ

8

passed to the jury for their

9

examination. )

10

THE COURT:

11

I

Okay.

Members of the Jury,

12

it's time now for lunch.

Let me just remind you o[

13

this, this is our third day here of what I told you

14

earlier, at the beginning of the trial.

15

even though we've now heard two and a half days of

16

proof, I still want you to remember not to in any way

17

make any remarks or have any conversations about what

18

you've heard.

19

And I just wanted lo remind you to not have anything to

20

say abou_t what you have heard so far.

21

your lunch . . And I'll see you back in here in a little

22

over an hour.

And that ls,

You'll have plenty of Lime to do that.

I hop-e you enjoy

r_·_

23
24

25

2798

APPENDIX F

26A

d] J

Lhe evidence Lha L Urn S La Le has

r al led

Lo prove

ueyuml a r·eaHonal:Jle doul.>l that the defendant was al the
2

scene of Uie crime when ll was couunlLLed, you muBl find
3

:11

I

lhe defendant nol yuilly.
4
5

MemlHffs of the Jury, some of you have
6

been exposed lo prelrlal publiclly in this case.

I

7

ayctin instruct you lhal you can consider no information
8

.in rectchlng your verdlcl other than the evidence you
9

hear in the courtroom.

It would be further

10

iruµermlsslble for you to mention during deliberations
11
12
13

lo any other juror any information lhal you recall
reading, hearing, or seeing ln the media or otherwise
related lo this case other than what you hear or see in

14

Lhe courtroom.

This case must be decided solely upon

15

lhe evidence lhaL you hear in the courtroom.
16
17

Members of the Jury, you have heard a
18

stipulation read into the record.

A stipulation is an

19

20

agreement between Lhe parties LhaL Lhe facts read lnto

the record may be taken by you, the Jury, as true,
21

thereby dlspenslng wlth the necesslly of calling
22

wilnesses to establish the subject matter of lhe
23

sLlpulaLlon.
24
25

tffli~
'\::.:-;.-·
'~ I

.•\\~

2971

01547

APPENDIX F

27A

r·1

i

(WHEREUPON, the case was argued
lo lhe jury by all counsel, and
2

after which the Court charged
3
\.

the jury as follows, to-wil:)
4

5

THE COURT:

Members o[ the Jury:

You

6

have reported that you have found the defendant, Oscar
i

7

Franklin Smith, guilty beyond a reasonable doubt of
8

Murder in the First Degree as charged in Counts One,
9

Two and Four of the indictment.

The offense of Murder

10

in Lhe First degree is punishable by death or by
11

imprisorunent for life.
12
13

Il is now your duty to deter~ine within
14
i

f

the llmlLs prescrlbed by law Lbe penally which shall be
15

imposed as punishment for this offense.

\..

Tennessee Code

16

AnnoLaLed SecLion 39-2-202 (b) provides LhaL a person
17

convicted of Murder in the First Degree shall be
18

punished by death or by imprisonment for life.
19

:-!

20

In arriving al this determination, you
21

are auLhorl~ed Lo w~lgh and consider any mltlgatlng
22

circm,,stances and any of the statutory aggravating
23

clrcumsLances which may have been ralsed by the
24

evidence throughout the entire course of this trial,

. I.

25

including Urn guil L-flndlng phase or Lhe sentencing
3266

APPENDIX F

28A
I

!-

Statements, arguments and remarks or
2

counsel are intended lo help you in understanding the
3

evidence and applying the law, but they are not
4

evidence.

Ir any statements were made lhal you believe

5

are not supported by the evidence, you should disregard
6

them.
1.

[•.".

7
8

You are the exclusive judges cif the

·_:';.:1

t}j ('s\

9

facts in this case.

Also, you are the exclusive judges

10

or the law under the direction of the Court.

\

You

11

should consider all of the evidence in the light of
r

12

,·

13

\.'

your own observations and experience in lire.

i

l

14

The burden of proof is upon the Stale to
15

prove any statutory aggravating circumstance or
16

Ii

circumstances beyond a reasonable doubt lo a moral·
17

certainly.
18

19
.

(

!

Reasonable doubt is lhat doubt
20

engEmdered by an investigation of all the proof in the

\:
21

case and an inability, after such investigation, lo let.
1:/

22

the mind rest easily upon the certainly or your
23

verdict.

Reasonable doubt does not mean a doubt that

24

may arise from possibility.

Absolute certainty is not

25

demcmded by the law but moral certainly is required and
3268

APPENDIX F

29A

Members of the Jury, some of you have
been exposed lo pretrial publicity in Lhis case.

I

2

again instruct you that you can consider no information
3
i

I

in reaching your verdict other than the evidence you
4

hear in the courtroom.

Il would be further

5

impermissible for you lo mention during deliberations
6

lo any other juror any information thal you recall
7

reading, hearing, or seeing in lhe media or otherwise
8

related lo this case other than what you hear or see in
9

the courtroom.

This case must be decided solely upon

10

the evidence that you hear in the courtroom.
11

12

You have reported that you have found
13

I.

the defendant, Oscar Franklin Smith, guilty o[ murder
14

in the first degree as charged in counts one, two, and
15

[our of the indictment.

The offense of murder in the

16

first degree is punishable by death or by imprison~ent
17

for life.
18

.. I
:

[:::.

19

Members of the Jury, you must determine
20

(rum all the proof in this case whether or not the
21

punis~nenl shall be death or life irnprisomnenl in count
22

one, count two and count [our of the indictment.
23
24

Our slalulory law provides lhal the jury
25

shall fix lhe punis~nenl after a separate sentencing
3272

30A

APPENDIX F

1·

i

hearing Lo determine wheLher Lhe defendanl shall be
2

sentenced lo dealh or life imprisonment.

Your verdlcL

3

musL be unanimous as Lo either for~ of punis~nenL.

4

have now heard all the evidence lo be presented in the

5

tiial and the sentencing hearing of this case,

6

including all the evidence as Lo whether Lhere were any

7

aggravating circumstances and whether there were any

8

rnltlgatlng circumstances, all of which you wlll

9

carefully weigh and consider.

You

10
11

[

Members of the Jury, the Court will read

12

Lo you Lhe aggravating clrcumsLances which Lhe law

13

requires you lo comdcler if you find beyoncl a

14

reasonable doubt that the evidence was establishecl.

15

You shall not Lake account or any other facts or

16

circumstances as the bases for deciding whether the

17

death penally would be appropriate in this case.

18

19
.-1i

No death penally shall be imposed unless

20

you unanimously flnd LhaL Lhe Stale, during the trial

21

and/or during the sentencing hearing, has proven beyond

22

a reasonable doubt 0ne or more specified statutory

23

aggravating circumstances.

24

25

3273

APPENDIX F

31A

Before you may flnd Lhal any one of Lhe
aggravating circumstances exists, each of you must
2

unanimously agree that the Slate has proved each
3

circumstance as defined beyond a reasonable doubt.
I

4

5

You are to presume that any alleged
6

aggravating circumstance does not exist.

This

7

presumption remains unless and until each and every one
8

of you is satisfied from the evidence that the specific
9

aggravaling circumstance is proved.

If you have a

10

doubt based upon reason concerning any or the
11

aggravating circumstances, you shall not use that
12

circumstance in the course of further deliberations.
13

l

14

Your determination may not proceed
15

further unless and until you unanimously find that a
16

particular specified aggravating circumstance or
17

circumstances exist beyond a reasonable doubt.

If you

18

are unable to reach such an agreement after reasonable
19

and diligent effort, your verdict shall be life and you
20

. I
I

i'

..

shall proceed no further.
21

22

If you unanimously dE:?termine that the
23

24

SLaLe has proved beyond a reasonable doubt one or more
or the !:lpecified aggravating circumstances, then you

25

mu8l go on to consider mi ligating circmnslc:1.nces.
3274

32A

i

:!

APPENDIX F

As lo a determination of miligaling

I

: 1·.

!

2

circumstances, you may deliberate as a body about

3

miligaling circumstances, but you are nol required lo

4

reach a unanimous verdict as Lo their existence or

5

weight.

6

is shown beyond a reasonable doubt.

7

consider mitigating circumstances, each of you must

8

decide [or yourself whether mitigating circumstances

9

may exist, and if so, how much weight each deserves.

Instead, when you

10

If you conclude that any evidence supports a mitigating

11

circumstance, then you should consider that mitigating

12

circumstance lo be established, and then determine the

13

weight lo which it is entitled.

I

l

Nor are you to gauge whether their existence

14

[

15

Aggravating and miLigating circumstances

.;

16

for you lo consider will be listed under each count

17

later in this instruction.

r

I
l-

18
19

1 ·-

i
l- ~ .

If the jury unanimously determine that

20

al least one statutory aggravating circumstance or

21

several statutory aggravating circumstances have been

22

proved by the Stale ~eyon~ a reasonable doubt, and that

23

the aggravating circumstance or circumstances outweigh

24

any miLigating circuinstance or circumstances beyond a

25

reasonable doubt, the sentence shall be death.
3275

APPENDIX F

33A

If the death penally is the decision o[
the jury, the members o[ the jury shall then complete
2

the attached form entitled "Punishment of Death."

The

3

jury must include and reduce to writing the specific
4

L_

statutory aggravating circumstance or circumstances so
5

found.

Further, the jury must include in its finding

6

that the statulory aggravating circumstance or
7

circumstances so found outweigh any mitigating
8

( ,,.. \

circumstances beyond a reasonable doubt.

Upon such

9

unanimous finding, each member of the jury shall affix

' . -.-i

10

his or her signature lo lhe said written finding, and
11

then return said written verdict lo the Court.
i

!

12

13

I
II

If the jury unanimously deter111ines that

14

no statutory aggravating circumstance or circumstances
15

have been proved by the Slate beyond a reasonable
16

doubt, or i[ the jury unanimously determines that lhe
17

statutory aggravating circumstance or circumstance1:1
18
:-:.·

have been proved by the Slate beyond a reasonable
19

doubt, that that said circu111slance or· circumstances do
20

not outweigh any mi ligating circu1nstances, the
21

punishment shall be life imprisonment.
i.(:-;

I further

22

inslrucL each of you that i[ the weight of the
23
24

miligating circumstances equals the weight of the
aggravating circmnslances you find lo be beyond a

25

reasonable doubt, your verdict must be life.

The

r
I

APPENDIX F

34A

members of the jury shall lhen complete lhe attached

I,

I

2

form entitled "Punishment of Life Imprisomnenl" by

3

affixing their signatures thereto and returning the

4

written verdict of the jury Lo the Court.

5

Reasonable doubt is Lhal doubt

6

7

engendered by an investigation of all lhe proof in the

8

case and an inability, after such investigation, lo let

9

the mind rest easily as to the certainly of your

10

findings.

Reasonable doubt does not mean a capricious,

11

possible, or imaginary doubt.

12

AbsoluLe cerlalnly ls not de111crnded by

13

['

I
i .·.,
1,,-.,

14

the law lo determine the certainly of your findings,

15

but moral certainly is required as Lo every proposition

16

or proof requisite to determine the certainty of your

17

findings as to the aggravating circumstance or

18

circumstances.

19

20

You will be provided wilh a punishment

21

for each individual count of the indictment.

One

22

Erntitled "Punishment:. of Death," and another entitled

23

"Punishment of Life Imprisonment."

24

the appropriate punishment for for each count and each

25

juror will sign lt.

You will complete

The other punishment form ls to be
3277

APPENDIX F

35A

The charge in each count of the
2

indictment is a separate and distinct allegation.

You

3

must decide each count separately on the evidence and

4

law applicable to it.

5

!.. ..

I .

l

6

You can have no prejudice or sy111pathy or

7

allow anything but the law and the evidence to have any

8

influence upon your verdict.

9

verdict with absolute fairness and impartiality as you

10

think justice and truth dictate.

11

You must render your verdict with

12

[

13

absolute fairness and impartiality as you think justice

14

and truth dictate.

15

The verdict 111ust represent the

16

lC

You must render your

17

considered judgment of each juror.

.'r,

18

a verdict, il is necessary that each juror agree

[-:'.

19

there Lo.

I ..

20

.

;

II

21

In order Lo return

Your verdict must be ummimous.

It is your duty, as jurors, to consult

22

with one another and to deliberate with a vlew to

23

reaching an agreement, if you can do so without

24

violence to individual judgment.

25

decide the case for yourself, but do so only after an

Each of you must

3286

APPENDIX F

36A

1 ·

imparllal conslderallon of the evidence wllh your
1

fellow jurors.

In lhe course

or

your deliberations, do

2

nol hesllale lo re-examine your own views and change
3

your opinion if convinced it is erroneous.

,j .

L.

Bul do not

4

Hurrender your honest convlctlon as to the weight or
5

effect or the evidence solely because of lhe opinion of
6

your fellow Jurors or for the mere purpose of returning
7

a verdict.
8

· r··.
1':. :.

9

(.:"·

You may now retire lo lhe jury room for

/·

10

I

your dellberallons ln seltlng punlstunenl for the
11

defendant, solely and alone upon the evidence
12
.·.)

lnlroduced upon Lhe Lrlal and senlenclng hearlng •
13
14

!

I

15

Let me check the spelling of one word

I
16

!

here.

I.·

i·.·.·

It's noL

big, but I just want to correct it.
18

. it~ ::.A
.·

19

i.

20

1·.

I've got one word misspelled here.

17

(Pause
21

in

the proceedings while

the Court makes a change in the
charge.)

22
23
24

Okay.
one of these words.

Okay.

One letter was wrong on

Soll lsn'l wrong anymore.

We'll

25

see you all laler.

And I appreciate each and everyone
3287

